Audit of Selected Processes at the
African Development Foundation

     Report No. 9-ADF-01-002-P
         February 26, 2001




           Washington, D.C.
                                                                                   February 26, 2001


MEMORANDUM FOR ADF President, Nathaniel Fields

FROM:                         IG/A/PA, Dianne L. Rawl

SUBJECT: 	                    Audit of Selected Processes at the African Development
                              Foundation (Report Number 9-ADF-01-002-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management’s comments on our draft report. We have included those
comments, in their entirety, as Appendix II.

We conducted this audit in response to a request by the Chairman of the Senate Foreign
Relations Committee.         This report includes one procedural recommendation.
Management’s comments included a plan for corrective actions. However, we found that
the details of that plan were not sufficient to enable us to decide whether or not it met the
intent of our recommendation. Consequently, we would appreciate receiving additional
details within 30 days.

I want to express my sincere appreciation for the cooperation and courtesies extended to
my staff during the audit.

________________________________________________________________________
Background
The African Development Foundation (ADF) is a U. S. Government corporation that was
established by Congress in 19801 and began field operations in 1984. The purposes of
the Foundation were to: (1) strengthen the bonds of friendship and understanding
between the people of Africa and the United States; (2) support self-help activities at the
local level designed to enlarge opportunities for community development; (3) stimulate
and assist effective and expanding participation of Africans in their development process;
and (4) encourage the establishment and growth of development institutions which are
indigenous to particular countries in Africa and which can respond to the requirements of
the poor in those countries. In order to carry out these purposes, the Foundation was
authorized to make grants, loans, and loan guarantees to any African private or public

1
    Established under the African Development Foundation Act (22 USC §§ 290h et seq).
group (including public international organizations), association, or other entity engaged
in peaceful activities.

The Foundation is governed by a seven-member Board of Directors appointed by the
President of the United States. By law, five members of the Board are from the private
sector and two are from the Federal government. The ADF President, who reports to the
Board of Directors, manages daily operations.

Foundation headquarters are located in Washington, D.C., and staffed with about 30
employees. ADF has no direct-hire employees posted overseas. Its overseas offices,
staffed entirely with local African development professionals, are funded through
cooperative agreements with a Country Liaison Officer (CLO) who serves as the head of
the office.

ADF does not develop projects itself, but provides grants directly to private African
groups. Since inception, ADF has funded more than 1,300 projects in at least 34 African
countries. It currently funds active projects in 14 sub-Saharan countries.

ADF is funded through annual appropriations transferred from USAID’s Development
Assistance appropriation. ADF’s annual appropriation for fiscal years 1995 through 2000
averaged about $13 million. In addition to appropriated funds, ADF seeks other funding
from American companies and host country governments.

In November 1999, Public Law 106-113 amended the responsibilities of the USAID/IG,
under Section 8A(a) of the Inspector General Act of 1978, to include audit responsibility
for ADF. Pursuant to this new authority, the Senate Committee on Foreign Relations
requested that we answer the questions shown below.

________________________________________________________________________
Audit Objectives
We designed the audit to answer the following questions:

   Did the African Development Foundation select appropriate mechanisms for
   obtaining in-country services and representation?

   Did the African Development Foundation comply with federal laws and
   regulations pertaining to the rate of obligation of appropriated funds in the last
   month of the fiscal year?

   Did the African Development Foundation properly categorize program and
   operating costs?

Appendix I contains a complete discussion of the scope and methodology for this audit.




                                            2

Audit Findings
Did the African Development Foundation select appropriate mechanisms for
obtaining in-country services and representation?

ADF selected cooperative agreements as the mechanism for obtaining in-country
services. Because the principal purpose of these agreements was the acquisition of
technical and personal services, rather than the provision of assistance, the use of
cooperative agreements was inappropriate.


ADF Did Not Select an Appropriate Mechanism
to Obtain Overseas Services and Representation

For the last thirteen years ADF has been using cooperative agreements with Country
Liaison Officers (CLOs) to obtain overseas services and representation. The Federal
Grant and Cooperative Agreement Act of 1977 defines the circumstances under which
grants, cooperative agreements, and contracts should be used by Federal agencies. It
states that cooperative agreements should be used when the principal purpose of the
instrument is to transfer a thing of value to a recipient to carry out a public purpose of
support or stimulation. Contracts should be used when the principal purpose is to
acquire property or services for the direct benefit or use of the United States
government. Because the principal purpose of ADF’s agreements was the acquisition of
services, the use of cooperative agreements was not appropriate. In addition, ADF did
not ensure that its agreements were properly managed. It exercised such intensive control
of the CLOs, that its relationship with them was not that of donor-recipient but was
arguably that of employer-employee. Furthermore, it repeatedly awarded agreements to
the same CLOs without competition. As a result, it might not have received the best
services or the lowest prices available. For these reasons, we make the following
recommendation.

           Recommendation No. 1: We recommend that the African Development
           Foundation terminate its cooperative agreements with Country Liaison
           Officers and obtain in-country services and representation in a manner that
           complies with federal laws and regulations.

For more than thirteen years ADF has been using cooperative agreements with Country
Liaison Officers (CLOs) to fund its overseas offices. At the time of the audit, ADF had
active cooperative agreements in 14 African countries.2 These cooperative agreements
were usually awarded to a local development professional referred to as a CLO. The
CLOs’ primary duties, as outlined in the cooperative agreements, were to manage ADF’s
overseas office by hiring and supervising up to three other local development
professionals. An overseas office staff typically consisted of the CLO, a Project Officer,

2
    ADF no longer has a program in Cameroon. They have started a program in Nigeria.


                                                    3

an Evaluation/Training Officer, and a Financial Officer. Office staff members were
responsible for screening grant applications, monitoring and evaluating grant projects,
providing training and technical assistance to grant recipients, and reporting on project
progress to ADF headquarters.

ADF officials first decided to use cooperative agreements to obtain in-country services
after conducting a legal analysis of the issue. In a January 26, 1988 memo to ADF staff,
ADF’s General Counsel stated:

        When the Foundation decided to retain the services of [CLOs], a
        determination was made that, for budgetary purposes, it was advisable to
        use cooperative agreements instead of contracts as the vehicle for doing
        so.

However, in the same memo the General Counsel warned:

        To the extent Foundation staff begins to use [CLOs] as field
        representatives for the Foundation, rather than to provide assistance to the
        grantees and applicants, the relationship will move toward a procurement
        relationship for which a contract would be more appropriate.

And,

        In the long run, it will not be in our interest to try to manipulate the
        cooperative agreements in an attempt to meet needs to which the
        agreements cannot legally respond.

Determining the appropriate funding mechanism has not been a simple matter for Federal
agencies. Long-standing confusion between grant relationships and procurement
relationships resulted in the Federal Grant and Cooperative Agreement Act of 1977.3
This legislation established standards for agencies to use to choose the most appropriate
funding vehicle–a procurement contract, a grant, or a cooperative agreement. According
to the Act, agencies were to use a procurement contract when “the principal purpose of
the instrument is to acquire…property or services for the direct benefit or use of the
United States Government.”4 On the other hand, a cooperative agreement was to be used
when “the principal purpose of the relationship is to transfer a thing of value to
the…recipient to carry out a public purpose of support or stimulation authorized by a law
of the United States instead of acquiring…property or services for the direct benefit or
use of the United States Government.”5

The Senate Committee on Governmental Affairs stated in a 1982 report:



3
  31 USC §§ 6301-6308.
4
  31 USC § 6303.
5
  31 USC § 6305.


                                             4

        The choice of instrument for an intermediary relationship depends solely
        on the principal federal purpose in the relationship with the intermediary.
        The fact that the product or service produced by the intermediary may
        benefit another party is irrelevant. What is important is whether the
        federal government’s principal purpose is to acquire the intermediary’s
        services, which may happen to take the form of producing a product or
        carrying out a service that is then delivered to an assistance recipient, or if
        the government’s principal purpose is to assist the intermediary to do the
        same thing. Where the recipient of an award is not receiving assistance
        from the federal agency but is merely used to provide a service to another
        entity which is eligible for assistance, the proper instrument is a
        procurement contract.6

In ADF’s case, cooperative agreements were used to acquire the services of CLOs to
provide assistance to grant recipients and administrative support to ADF. The
determining factor as to which instrument was appropriate should have been the
“principal purpose” of the instrument. We believe that the principal purpose of ADF’s
cooperative agreements with CLOs was to acquire their services rather than to provide
them (the CLOs) with assistance. Therefore, based on the criteria reviewed above, we
believe that a procurement contract, rather than a cooperative agreement, would have
been the appropriate mechanism for obtaining in-country services.

ADF’s decision to use cooperative agreements meant that it did not follow the statutory
and regulatory requirements applicable to contracts, particularly those dealing with
competition. In contrast to the requirements for cooperative agreements,7 the FAR and
the Competition in Contracting Act8 (CICA) require federal agencies to obtain services,
except in certain situations, based on the principles of full and open competition. Lack of
full and open competition increases the risk that awards could be made unfairly and that
they could result in a higher cost and/or lower quality of service. Although not required
to do so, it has been ADF’s practice to competitively award initial cooperative
agreements with CLOs. According to ADF, since 1997 all new cooperative agreements
with CLOs have been competitively awarded. However, these agreements usually
covered only a one-year period, and ADF routinely renewed them in each succeeding
year without additional competition. For example, at the time of our audit the majority of
ADF’s cooperative agreements with CLOs had been renewed, without competition, for
the last 5 years. A cooperative agreement with one individual had been renewed annually
for a period of 13 years.

Even if ADF’s use of cooperative agreements had been appropriate, which we believe
was not the case, ADF actually managed them as if there was an employer-employee
rather than donor-recipient relationship between ADF and the CLO. For example, ADF
conducted annual performance evaluations, provided salary increases based upon the

6
  Principles of Federal Appropriations Law, Volume II, p. 10-15 (GAO/OGC-92-13).

7
  The Federal Grant and Cooperative Agreement Act of 1977 encourages, but does not require, competition

in making grants and cooperative agreements (31 USC § 6301).

8
  41 USC § 253.



                                                  5

foreign service national (FSN) pay scale at the U.S. embassy in the host country,
approved vacation schedules, and provided training. In addition, the Foundation required
CLOs to maintain local bank accounts in the name of the African Development
Foundation. ADF also provided counsel and assistance to the CLO in resolving specific
project-related issues, consulted in the selection of professional office staff members,
approved an annual office work plan and scopes of work for each CLO staff member,
provided ADF-owned office equipment (including vehicles), and negotiated and entered
into lease agreements for CLO office space.

When ADF first decided to use cooperative agreements to finance its overseas offices, its
General Counsel identified some specific activities which could not be required of the
African professionals staffing those offices. For example overseas staff members could
not:

          •	 provide logistical support to ADF staff in the field;

          •	 represent the Foundation in an official capacity to foreign governments; or

          •	 represent the Foundation in an official capacity to non-governmental
             organizations (NGOs).

Contrary to these instructions, ADF’s standard CLO cooperative agreements required
CLOs to:

          •	 schedule and coordinate in-country visits by ADF headquarters staff;

          •	 establish and maintain contact with high-level officials and representatives of
             the host country; and

          •	 maintain contact with other NGOs.

These work requirements indicate that ADF’s relationship with its CLOs became that of
employer-employee, further supporting the conclusion that ADF’s use of cooperative
agreements to obtain the services in question was inappropriate. We provide the
following criteria to support this position.

The FAR provides uniform policies and procedures for acquisitions by executive
agencies of the federal government. The FAR9 states that “the Government is normally
required to obtain its employees by direct hire under competitive appointment or other
procedures required by the civil service laws.” It also provides the following guidance
concerning employer-employee relationships:

          An employer-employee relationship under a service contract occurs when,
          as a result of (i) the contract’s terms or (ii) the manner of its administration

9
    FAR Subpart 37.104.


                                                 6

        during performance, contractor personnel are subject to the relatively
        continuous supervision and control of a Government officer or
        employee.10

The FAR describes the elements to be used as a guide in assessing whether or not a
contract is personal in nature. These elements also provide a means for testing whether
ADF has established an employer-employee relationship with its CLOs.11


    Elements of Employer-Employee                          Related Conditions Pertaining to
  Relationship pursuant to FAR 37.104                          ADF/CLO Relationship
Performance on site.                                  CLOs work in offices leased by ADF and
                                                      conduct periodic site visits to projects.
Principal tools and equipment furnished by            ADF provides CLOs with office
the Government.                                       equipment—including vehicles.
Services are applied directly to the integral         A primary purpose of ADF is to provide
effort of agencies or an organizational               direct    financial    support     to     non-
subpart in furtherance of assigned function           governmental African entities to carry out
or mission.                                           development projects. CLOs are to provide
                                                      needed technical assistance in the design
                                                      and implementation of these projects.
Comparable services, meeting comparable               As of September 30, 2000, USAID
needs, are performed in the same or similar           employed 4,203 foreign national personal
agencies using civil service personnel.               service contractors in its overseas offices.
The need for the type of service provided             8 out of 13 CLOs have been CLOs for at
can reasonably be expected to last beyond             least five years. ADF’s longest serving
1 year.                                               CLO has been in place for 13 years.
The inherent nature of the service, or the            • CLO staff must be hired in consultation
manner in which it is provided, reasonably                with and subject to the general
requires directly or indirectly, Government               guidance of ADF headquarters.
direction or supervision of contractor                • CLO must provide ADF with written
employees in order to–                                    financial and progress reports on a
• Adequately protect the Government’s                     monthly basis.
    interest;                                         • CLO must maintain ADF funds in a
• Retain control of the function involved;                separate non-interest bearing bank
    or                                                    account established in the name of the
• Retain full personal responsibility for                 African Development Foundation with
    the function supported in a duly                      two ADF headquarters personnel as
    authorized Federal officer or employee.               signatories.




10
   FAR Subpart 37.104(c)(1)

11
   According to FAR, Section 37.101, “Personal services contract’ means a contract that, by its express

terms or as administered, makes the contractor personnel appear, in effect, Government employees.”




                                                  7
ADF’s relationship with its CLOs could also be examined under Internal Revenue
Service (IRS) publications that describe the elements of an employer-employee
relationship. According to the IRS, an employer-employee relationship is characterized
by whether one party exercises control over another party. This control does not even
have to be exercised in order to be a determinant of such a relationship. One IRS
publication states:

       Under the common law rules, every individual who performs services subject

       to the will and control of an employer, both as to what shall be done and how

       it shall be done, is an employee. It does not matter that the employer allows

       the employee considerable discretion and freedom of action, as long as the

       employer has the legal right to control both the method and result of

       services.12


Another IRS publication13 provides a detailed breakdown of different types of employer
control:

       Evidence of the degree of control and independence falls into three categories:

       behavioral control, financial control, and the type of relationship of the parties

       as shown below:


       Behavioral control: Facts that show whether the business has a right to direct

       and control how the worker does the task for which the worker is hired

       include the type and degree of instruction the business gives the worker.


       An employee is generally subject to the business’ instructions about when,

       where, and how to work. All of the following are examples of types of

       instructions about how to do work:


       •   When and where to do the work
       •   What tools or equipment to use
       •   What workers to hire or to assist with the work
       •   Where to purchase supplies and services
       •   What work must be performed by a specified individual
       •   What order or sequence to follow
       •   Training the business gives the worker

       Financial control: Facts that show whether the business has a right to control

       the business aspects of the worker’s job include:


       The extent to which the worker has unreimbursed business expenses…

       The extent of the worker’s investment…



12
     IRS Publication 515.
13
     IRS Publication 15a.


                                                 8

       The extent to which the worker makes services available to the relevant
       market…
       How the business pays the worker…
       The extent to which the worker can realize a profit or loss…

       Type of relationship: Facts that show the parties’ type of relationship include:

       •	 Written contracts describing the relationship the parties intend to create.
       •	 Whether the business provides the worker with employee-type benefits,

          such as insurance, a pension plan, vacation pay, or sick leave.

       •	 The permanency of the relationship…
       •	 The extent to which services performed by the worker are a key aspect of

          the regular business of the company…


Based on the above criteria, it is clear that ADF’s relationship with the African
professionals managing its overseas offices was not that of donor-recipient, but was
arguably that of employer-employee. ADF has the option of maintaining its current
relationship with its CLOs, by either hiring the CLOs as employees or as personal service
contractors. In order to award personal service contracts an agency must have specific
statutory authority. ADF’s enabling legislation14 gave it the authority to establish branch
offices in Africa “as may be necessary to carry out its functions.” However, that
legislation did not provide guidance or describe a preferred method for staffing those
offices. The legislation further gave ADF the authority “to make and perform such
contracts and other agreements with any individual, corporation, or other private or
public entity however designated and wherever situated, as may be necessary for carrying
out the functions of the Foundation.” It is not clear at this time whether this language
constitutes specific statutory authority to enter into personal service contracts. Should
ADF choose to use personal service contracts to staff its overseas offices, it would first
have to determine whether it has the specific authority to do so.

In its comments on our draft report, Foundation management indicated that it had decided
to revise the process by which it obtains in-country services to one that would meet the
requirements of applicable laws and regulations. It stated that it would replace all
existing cooperative agreements with new grants and cooperative agreements and that the
new awards will be to eligible groups rather than individuals. Although we agree that
ADF must replace its current cooperative agreements, the plan presented by management
was not sufficiently detailed to enable us to decide whether it would or would not fully
address the intent of our recommendation. Consequently, we asked management to
provide additional details within the next 30 days.




14
     African Development Foundation Act (22 USC §§ 290h et seq).


                                                   9

Did the African Development Foundation comply with federal laws and regulations
pertaining to the rate of obligation of appropriated funds in the last month of the
fiscal year?

We found that ADF complied with the provision in the foreign operations appropriations
legislation for fiscal year 1999 requiring that not more than 15 percent of the
appropriations for that year be obligated during the last month of availability.

According to the Foreign Operations Appropriations Act of 1999, USAID was to make
available to ADF an amount not to exceed $11 million from its Development Assistance
appropriation. The funds appropriated to USAID, and subsequently transferred to ADF,
were two-year funds that were available for obligation through September 30, 2000.
However, Section 501 of the Public Law 105-227 (Appropriation Act) stated: “… not
more than 15 percent of any appropriation item made available by this Act shall be
obligated during the last month of availability.”

We reviewed ADF’s obligations associated with its $11 million in fiscal year 1999
appropriations to determine the percentage obligated during September 2000, the final
month of availability. According to ADF records, as of September 30, 2000, ADF had
obligated $10,605,672 of its fiscal year 1999 appropriation. Of that amount, $405,064, or
3.7 percent, was obligated during September 2000, well below the 15 percent limitation
in Section 501. According to financial data provided by ADF management, ADF had
obligated almost the entire fiscal year 1999 appropriation during the first year of
availability.

Although ADF easily met the 15 percent limit on obligations of fiscal year 1999
appropriations during the last month of availability, it may have experienced other
problems with those funds including temporarily obligating more than was appropriated
and allowing over $360,000 of the appropriated funds to expire. This occurred largely
due to ADF’s practice of making foreign exchange adjustments at the end of the fiscal
year. To avoid such problems in the future, we believe that ADF should consider making
adjustments periodically throughout the fiscal year rather than waiting until year-end.
Because these problems did not specifically impact our stated audit objective we have not
included a formal recommendation for corrective action in this report. However, these
and other funds control issues could well become the subjects of future OIG audit efforts.


Did the African Development Foundation properly categorize program and
operating costs?

The African Development Foundation properly categorizes program and operating costs.
ADF’s appropriation passes through the USAID budget as a total amount. Congress has
not directed or provided guidance to ADF regarding the amount that should be spent for
program funding and operating expenses. An official at the Office of Management and
Budget (OMB) stated that OMB monitors the amount spent for operating expenses and
20 to 25 percent was considered as appropriate.



                                           10

In June 1994 the Office of Management and Budget proposed a standard budget format
that would be used by both the African Development Foundation and the Inter-American
Foundation. The format separated expenditures into four categories: 1) Development
Assistance Grants; 2) Development, Research, and Dissemination; 3) Technical
Assistance; and 4) Program Management and Operation. The first three categories relate
to Program Funding and the fourth category is related to Operating Expenses. ADF
complied with the proposed format, however ADF management added a category,
Strategic & Regional Initiatives/Trade & Strategic Initiatives under Program Funding.
ADF management said that this was necessary in order for the budget to follow ADF’s
strategic objectives. We randomly selected transactions for Program Funding and
Operating Expenses and traced the transaction to the general ledger. ADF posted the
expenditures to the correct budget category in all cases that we tested. We did not
perform extensive testing, however based upon our limited testing we feel comfortable
that ADF is following OMB guidance.




Management Comments and Our Evaluation
In its response to our draft report, Foundation management indicated its agreement with
our findings concerning the second and third audit objectives. These objectives dealt,
respectively, with a legislative provision that the Foundation obligate no more than 15
percent of appropriated funds within the final month of availability and with the
Foundation’s categorization of program and operating costs. Management, however, did
not agree with our finding concerning the first objective, which dealt with the
Foundation’s selection of a mechanism to obtain in-country services and representation.
The bulk of management’s comments dealt with that finding.

Management believed that the draft report did not present a clear and convincing
argument that the Foundation had violated the Federal Grant and Cooperative
Agreements Act―the principal law governing a federal agency’s selection of instruments
for its relationships with non-federal entities. Management also believed that we had
inaccurately stated the Foundation’s purpose and improperly applied various criteria.

Based on management’s comments, we have made several changes to our report. For
example, we amended our discussion of the Foundation’s purpose. We also deleted
references to a GAO statement and Comptroller General decision because we believed
they could be misunderstood and were not essential to our conclusions. We did not
delete our discussions of and reliance on the Federal Acquisition Regulation and certain
IRS publications because we believe this material is essential to understanding our
conclusion that the Foundation’s relationship with its CLOs was not that of donor-
recipient but was more that of employer-employee.




                                          11

Regarding the Federal Grant and Cooperative Agreements Act, management contends
that its agreements with the CLOs were properly designated as assistance instruments
because 1) Congress directed the Foundation to assist or support a public purpose; 2) the
Foundation considered CLOs to be eligible recipients of assistance agreements; and 3)
the Foundation was authorized to fund activities to support project grantees. We agree
with the above three points, but do not agree that the cooperative agreements complied
with the Federal Grant and Cooperative Agreements Act because they were not written or
managed as assistance instruments. In our opinion, the principal purpose of the
Foundation’s cooperative agreements with the CLOs was the acquisition of specific
technical and administrative services, which the Foundation used for its own benefit and
that of its grantees. Furthermore, the CLOs were so closely supervised by Foundation
managers that there is reason to argue that they were actually Foundation employees.
Therefore, because the Foundation did not properly design or manage its cooperative
agreements with the CLOs as assistance instruments, we believe that the Foundation’s
use of cooperative agreements to acquire in-country services and representation was
inappropriate.

Notwithstanding its disagreement with our conclusions, management indicated that there
was room for improvement in its use of intermediaries to provide assistance to its
grantees. In its comments, management advised us that it plans to replace all current
CLO cooperative agreements, by November 15, 2001, with new grants or cooperative
agreements. These new grants or cooperative agreements will be awarded to groups that
have been recognized as legal entities by their governments or been selected by
communities to represent them. Management plans to award the initial grants or
agreements on a competitive basis and limit the number of times they could be renewed
without competition. Management also agreed that the Foundation would not involve
itself in the management of the groups―it would not, for example, conduct performance
evaluations, determine salary increases, and approve vacation schedules. Management
also indicated that it would not require the groups to provide administrative support to
Foundation staff. Instead, the Foundation would enter into contracts, as appropriate, to
procure any services it needs. Finally, management said that the Foundation would
develop and issue grant and contract policies.

Although we agree with management’s plan to replace the Foundation’s current
cooperative agreements by November 2001, the plan was insufficiently detailed for us to
determine whether it will resolve all of our concerns dealing with such issues as the status
of current CLO agreements, continuing competition in the selection process, and the
management capabilities of selected organizations. For example, management did not
describe the actions it will take to obtain in-country services from this point in time until
it is able to award new agreements later this year. Does the Foundation intend to amend
the existing, but inappropriate, cooperative agreements, issue new agreements with
current CLOs, or issue short-term contracts? Will the Foundation limit the recipients of
its new awards to groups that are “in the business” of providing assistance to indigenous
grassroots organizations and that might have other objectives, donors, or clients? Will
the Foundation consider each of the new awards, together with their amendments, to be
“projects” that must comply with the $250,000 funding limitation included in Section



                                             12

290h-3(a)(2) of the Foundation’s authorization legislation? What is the proposed
duration of the new awards and how often may they be renewed without competition?
How will the Foundation insure that award recipients have the administrative and
management capability to implement the awards? Will the Foundation complete pre-
award assessments?

We are requesting that management provide such additional details on its plan within 30
days.




                                          13

[This page intentionally left blank]




                14

                                                                            Appendix I


Scope and Methodology

Scope

The Office of Inspector General (OIG) conducted an audit of selected processes at the
African Development Foundation (ADF). The audit was requested by the U.S. Senate
Committee on Foreign Relations. Fieldwork was conducted at ADF Headquarters in
Washington, D.C. from November to December 2000. All work was conducted in
accordance with generally accepted government auditing standards.

We reviewed management controls, all cooperative agreements in effect at the time of
our audit, appropriate financial documents (when possible), and budget requests. The
scope was expanded to include other documents contained in the cooperative agreement
files and personnel documents. We conducted limited testing of how program and
operating costs were categorized. We rated the risk of misclassifying costs as low,
therefore we did not establish materiality thresholds. Results indicated that expanded
testing was not needed. Risk assessment and materiality thresholds were not appropriate
for the objectives regarding mechanisms for obtaining in-country services and
representation and for rate of obligation of appropriated funds.

Methodology

To accomplish these audit objectives we interviewed officials from ADF, U. S. Agency
for International Development (USAID), Office of Management and Budget (OMB),
OIG, and Birnbaum and Co. (CPA firm that conducted ADF’s fiscal year 1999 financial
audit). We also examined documentation and performed the following tasks:

•	 reviewed USAID’s Automated Directives System (ADS), Federal Appropriations
   Law, Federal Acquisitions Regulations (FAR), Competition in Contracting Act
   (CICA);

•	 reviewed the cooperative agreement files that included all cooperative agreements for
   each of the 14 countries where ADF is active, e-mails, internal memos, and personnel
   requests;

•	 reviewed monthly obligations for ADF’s FY 1999 appropriation;

•	 reviewed ADF’s FY 2001 budget request and applicable OMB guidance; and

•	 tested a sample of accounting entries made to the major budget categories.



                                           15

[This page intentionally left blank]




                16

Appendix II

